          SENSITIVE BUT UNCLASSIFIED

      United States Department of State

    and the Broadcasting Board of Governors

              Ofﬁce of Inspector General





                Report of Inspection


            Voice of America’s
            Chinese Branch

     Report Number ISP-IB-10-53, July 2010




                            IMPORTANT NOTICE

This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED

                     SENSITIVE BUT UNCLASSIFIED



         PURPOSE, SCOPE AND METHODOLOGY OF THE 

                        INSPECTION

    This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efﬁciency, and the Inspector’s Handbook, as
issued by the Ofﬁce of Inspector General (OIG) for the U.S. Department of State
(Department) and the Broadcasting Board of Governors (BBG).

   PURPOSE

   The Ofﬁce of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department
and the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

   • 	 Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an ofﬁce or mission are being adequately coordinated.

   • 	 In accordance with the U.S. International Broadcasting Act of 1994 (P.L. 103-236)
       Section 304(a)(3)(B), OIG is prohibited from evaluating the content of BBG broad­
       casting entities. The section, entitled “Respect for Journalistic Integrity of Broadcast­
       ers,” states that “The Inspector General shall respect the journalistic integrity of the
       broadcasters covered by this title and may not evaluate the philosophical or political
       perspectives reﬂected in the content of broadcasts.”

   • 	 Resource Management: whether resources are being used and managed with maximum
       efﬁciency, effectiveness, and economy and whether ﬁnancial transactions and accounts
       are properly conducted, maintained, and reported.

   • 	 Management Controls: whether the administration of activities and operations meets
       the requirements of applicable laws and regulations; whether internal management
       controls have been instituted to ensure quality of performance and reduce the like­
       lihood of mismanagement; whether instances of fraud, waste, or abuse exist; and
       whether adequate steps for detection, correction, and prevention have been taken.

   METHODOLOGY

    In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site inter­
views; and reviewed the substance of the report and its ﬁndings and recommendations with
ofﬁces, individuals, organizations, and activities affected by this review.


                     SENSITIVE BUT UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                        SENSITIVE BUT UNCLASSIFIED





                                TABLE OF CONTENTS

KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

PROGRAMMING OF THE CHINESE BRANCH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

USE OF INTERNET AND NEW MEDIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

COMBATING CENSORSHIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

   Measuring Effectiveness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

MAINTAINING JOURNALISTIC STANDARDS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

STRATEGIC PLANNING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

   Making the Business Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

RESOURCE MANAGEMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   Human Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

   Financial Management, Procurement, and Inventory . . . . . . . . . . . . . . . . . . . . . 31

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

VOICE OF AMERICA CHINESE BRANCH PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . 39

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

APPENDIX A: VOICE OF AMERICA MANDARIN SATELLITE FEED . . . . . . . . . . . . . . . . . . . 53

APPENDIX B. CANTONESE SERVICE CLOCK. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

APPENDIX C. VOICE OF AMERICA CHINESE BRANCH PROGRAMS . . . . . . . . . . . . . . . . . . 47





                           SENSITIVE BUT UNCLASSIFIED

                          SENSITIVE BUT UNCLASSIFIED





                                 KEY JUDGMENTS

         • 	 The management of Voice of America’s (VOA’s) Chinese branch, which is
             composed of the Mandarin and Cantonese language services, provides sound
             leadership to an outstanding, dedicated staff under difﬁcult conditions im­
             posed by the antipathy of Chinese authorities to VOA Chinese programming.

         • 	 The Chinese Government censors VOA’s Chinese branch Web site and jams
             its radio frequencies. The International Broadcasting Bureau (IBB) has taken
             measures to deal with such censorship. Faced with innumerable challenges
             of reaching the Chinese target audience and deciding on the most effective
             delivery systems in a world of rapidly developing communications technolo­
             gies, the Chinese branch must give serious attention to a detailed, long range
             plan for how it expects to operate ﬁve or ten years from now; it also needs to
             provide a projection of the resources, both personnel and ﬁnancial, that will
             be required to meet its goals.

         • 	 China is the leading market in the world for new media, in terms of the ac­
             tual number of new media users, and is rapidly outpacing the United States.
             In spite of censorship challenges, the Internet and new media offer a new
             and vibrant way for the Chinese branch to reach its target audience inside the
             People’s Republic of China (PRC). Employees of the Chinese branch have
             enthusiastically embraced new ways to grow audiences through the Internet
             and are resourceful in using new media.

         • 	 The VOA Chinese branch relies on purchase order vendors (POVs) to
             supplement direct-hire staff. Differences between existing guidelines and
             Chinese branch practices need to be reviewed for compliance with governing
             U.S. Government statutes and regulations.

         • 	 The Chinese Government welcomes (or tolerates) certain VOA programs
             and products, such as English language teaching, as long as they do not cross
             a line that involves hard news reporting. As a way to penetrate the Chinese
             market, the branch chief initiated negotiations with a major cell phone com­
             pany to install VOA English language programs into phones intended for
             sale in the PRC. The program went into effect in 2008. Chinese cell phone




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010     1 .


                          SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED



             users have the option to subscribe to the programs. Indications are that the
             program has been highly successful. The OIG team considers this initiative a
             best practice.

         • 	 The Chinese branch administrative support has improved greatly, especially
             in the last two years, as noted by employees and POVs alike. However, de­
             spite serious efforts at communication and transparency, management has
             been less effective in getting the information about policies and procedures
             to all employees. The OIG team has made suggestions for improvement.

         The inspection took place in Washington, DC, between January 7 and March 31,
      2010.




2 .             OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED





                                            CONTEXT

         The VOA’s Chinese branch, composed of Mandarin and Cantonese language ser­
     vices, provides a comprehensive, independent, and objective source of information
     and news to the PRC. It does so under the VOA Charter and broader principles laid
     out in the legislation.1 The Charter also mandates that, “VOA will represent America,
     not any single segment of American society, and will therefore present a balanced
     and comprehensive projection of signiﬁcant American thought and institutions.”
     Finally, the Charter states that, “VOA will present the policies of the United States
     clearly and effectively, and will also present responsible discussions and opinion on
     these policies.”

         According to the Broadcasting Board of Governors (BBG),2 the agency under
     which the VOA Chinese branch operates, state control of media and censorship of
     the press in China deny more than a billion citizens of the PRC news and informa­
     tion in their native languages.

         The BBG also has under its umbrella Radio Free Asia, a private, nonproﬁt cor­
     poration established in 1996.3 Its mission is different from that of VOA. Radio Free
     Asia is a surrogate broadcaster and acts as a substitute for indigenous free media,
     concentrating its coverage on events occurring in and/or affecting the countries to
     which it broadcasts. It broadcasts in nine languages, including Mandarin and Canton­
     ese.4




     1
         P.L. 94-350 and 103-415.
     2
       The Broadcasting Board of Governors is an independent federal agency that supervises all U.S.
     Government-supported, nonmilitary international broadcasting, including the Voice of America,
     Radio Free Europe/Radio Liberty, Middle East Broadcasting Networks (Alhurra TV and Radio
     Sawa), Radio Free Asia, and Ofﬁce of Cuba Broadcasting.
     3
         Established under provisions of the 1994 International Broadcasting Act—P.L. 103-236.
     4
      In March 2010, Senator Richard Lugar introduced legislation aimed at boosting Radio Free Asia,
     proposing long-term budget authority for Radio Free Asia, rather than obliging lawmakers to
     take up the matter annually.


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010              3 .


                             SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



           The Chinese branch is responsible for 14 hours of original news and information
      programming daily, 12 hours in Mandarin and 2 hours in Cantonese. All 14 hours are
      transmitted on radio. One hour of original Mandarin television is simulcast on radio.
      Programs are distributed on shortwave, medium wave, FM, and satellite. Web sites
      are updated around the clock and available directly and via proxy servers. Television
      and radio programming also are placed on the Internet. VOA Mandarin maintains
      full-time, permanent correspondents in Beijing, Hong Kong, and Los Angeles, and
      has three-month rotational correspondents in Hong Kong and Taipei.

          The PRC, for years an important focus of VOA programming, has increasingly
      become a powerful player in international affairs. Early in 2010, at the time of this
      inspection, China’s grievances against the United States included the U.S. Secretary
      of State’s speech on Internet freedom, U.S. statements about the artiﬁcially depressed
      currency in China (unfair trade advantage), the U.S. sale of weapons to Taiwan, and
      the President’s decision to meet with the Dalai Lama in February 2010. In addition,
      China’s non-agreement on sanctions against Iran over its nuclear program is a subject
      of contention between the two countries. According to Business Week, China is the
      largest owner of U.S. debt abroad.5 Relations between the United States and China
      are complex. Information exchange between the two countries is a key element to
      developing better relations. VOA’s Chinese branch gives the United States the oppor­
      tunity to contribute to the information pool.

            The media environment in China offers opportunities and challenges. Approxi­
      mately 700 conventional television stations (with over 3,000 cable channels) and
      1,000 radio stations currently operate in the PRC—up from 12 television and 93
      radio stations in 1965. China has the largest number of Internet users in the world,
      as well as mobile device users.6 Competition among new media service providers is
      intense. However, China attempts to jam VOA’s radio frequencies, satellite television
      is illegal, and the Internet is censored. It is under these conditions that VOA Chinese
      operates.




      5
       http://www.businessweek.com/news/2010-03-15/china-japan-reduced-holdings-of-us-trea­
      sury-debt -in-january.html.
      6
       China Media Project – Journalism and Media Studies Centre/University of Hong Kong ;
      http://cmp.hku.hk/?s=china+media+statistics .


4 .               OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                   SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                          EXECUTIVE DIRECTION

         The Chief of the Chinese branch was appointed in April 2000 and has extensive
     experience in broadcasting to Asia, as Asian news director for the Metro Broadcast
     Corporation in Hong Kong and operations manager and national news director for
     the Taipei International Community Cultural Foundation in Taiwan. He reports to
     the East Asia Paciﬁc (EAP) division director, who has held his position since 1997
     and has extensive experience with Asian and Chinese affairs. The Mandarin and
     Cantonese Service Chiefs report to the Chinese branch chief. Both have long experi­
     ence with VOA. Each is responsible for the editorial and production content of his
     respective service’s programming.

           The branch chief is a strong manager and has good rapport with his staff. The
     OIG team witnessed, ﬁrsthand, the efﬁciency of his organizational talents. Before he
     came to VOA, his position had been ﬁlled by Foreign Service ofﬁcers. He is the ﬁrst
     non-Foreign Service ofﬁcer to hold the position and has provided a period of stabil­
     ity that was often lacking under chiefs who frequently rotated through the position to
     other assignments.

        During the ten years of the branch chief ’s tenure, there has been a signiﬁcant
     change in the demographics of the branch. It began with a majority of workers
     from Taiwan, but due to post-Tiananmen Square changes in U.S. immigration policy
     toward the PRC, the majority of staffers are now from mainland China.

         The branch chief has guided the branch through a period of changing media
     options for BBG. The VOA Chinese branch originally worked primarily in radio,
     but it is adapting to the need for alternative media through production in television,
     the Internet, and other new media. Because of signiﬁcant jamming and censorship
     by the Chinese, the language services have had to be creative and use any means to
     reach their target audience. The branch has received funds to enhance its Internet
     presence and is looking at other new media. This issue will be discussed elsewhere in
     the report.

         As a best practice and in an attempt to think creatively of distribution options,
     the chief, with strong support from the Chinese branch’s chief of external affairs
     and Internet services, initiated an understanding with a cell phone company in 2008
     for embedding VOA Chinese branch’s English language learning programs in all
     6.5 million of the cell phones the company planned to sell in China in 2008. The

OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010     5 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



      agreement involved BBG and the company’s attorneys and extremely difﬁcult legal
      requirements. It went into effect in March 2008. Four English teaching programs are
      embedded in the phones in the factory. Chinese users of the phones may choose to
      subscribe to the VOA-branded programs. The current programs are Learn a Word,
      Go English, Popular American, and Business Etiquette.

      Best Practice: Programming Cell Phones with VOA Chinese Language Learning
      Programs

      Issue: Because of the intense active interference by the Chinese authorities in VOA
      attempts to reach its Chinese target audience by Internet, the Chinese branch seeks
      innovative ways to reach into China and to make a connection with a Chinese audi­
      ence.

      Response: The VOA Chinese branch chief initiated long and difﬁcult negotiations
      with a cell phone company and arranged to have VOA Chinese branch’s English lan­
      guage learning programs embedded in its cell phones. The cell phone users have the
      option of subscribing to any of the programs.

      Result: The initiative has been very successful. As of 2008 year-end statistics, there
      were 357,502 downloads of VOA Mandarin service’s English language material by
      209,959 users of these phones. This innovation by the Chinese branch may well be
      copied by other language services attempting to reach target audiences through new
      media such as cell phones and personal digital assistants.

      Employee Morale

          BBG was at the bottom of the list of a recent survey of U.S. Government de­
      partments and agencies where people wanted to work. At the same time, however,
      VOA employees ranked the language services in the EAP division as the best ofﬁces
      in VOA in which to work. Accordingly, the OIG team made it a point to interview
      virtually all of the Chinese branch employees and a substantial number of POVs.

          A clear majority of the employees and POVs indicated in their personal ques­
      tionnaires that their morale was good to excellent,7 something that the OIG team
      observed, (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)



      7
       Sixty-seven percent of the employees rated their morale good to excellent; 86 percent of the
      POVs rated their morale as good to excellent.


6 .                OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                     SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)

          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

          (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010                 7 .


                           SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





8 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                           PROGRAMMING OF THE
                             CHINESE BRANCH

        Given the size of its staff and, even more importantly, the size of its target audi­
     ence, the Mandarin language service of the VOA’s Chinese branch outweighs the
     Cantonese language service, in terms of its programming and broadcasting volume.
     Nevertheless, both language services maintain robust schedules, given the limited
     funding with which they have to operate.

     Mandarin Language Service

         The staff of the Mandarin language service currently produces 8 hours of live
     and 4 hours of prerecorded programming for radio broadcast every day. These
     programs range from news programs about the United States (such as, “America
     Today”) to news about China in the world (such as, “Window World Report”) to
     business reports (such as, “Business Scene”) to English language programs (such as,
     “Dynamic English” and “Business Etiquette”) to music programs (such as, “Music
     World” [country] or “Music World” [pop hits]).

         The 24-hour day is divided between the VOA’s Mandarin language service broad­
     casts and the broadcasts of Radio Free Asia, with each organization using 12 hours
     of broadcast time. In the case of the Mandarin language service, 8 of its 12-hour
     daily allotments are used for live or new prerecorded programs. During the other 4
     hours, the Mandarin language service primarily repeats programs produced earlier
     in the day, always reserving the right (or ability) to introduce late breaking news as it
     happens.

         For television, the Mandarin language service produces 1 hour of live program­
     ming a day, 7 days a week. These programs include, “Cultural Odyssey” (a particular­
     ly popular program), “Pro and Con,” “Strait Talk,” “Health Forum,” and “American
     Report.” The live programs are repeated throughout the 24-hour period of a day,
     with the audio and the video being carried on Asia Satellite 3.

         Both the radio and television programs produced by the Mandarin language
     service are uploaded to the Internet on a daily basis. The language service’s Internet
     team modiﬁes programs as necessary to accommodate the Internet format.



OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010        9 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       Cantonese Language Service

            The Cantonese language service, which currently consists of seven full-time
       employees and three POVs, produces 2 hours of live short-wave and medium-wave
       (AM) radio programming a day, 7 days a week. These programs are broadcast be­
       tween 9 p.m. and 11 p.m. in China, which is believed to be the prime radio listening
       period in Southern China. An hour of broadcasting is carefully orchestrated to in­
       corporate news on the United States, the world at large, and China and Asia, any of
       which can include reports from stringers and/or interviews with guest speakers. The
       Cantonese service also carries, “VOA On Line” via the Internet twice a week. (See
       Appendix A for the Mandarin satellite feed; Appendix B for a Cantonese daily sched­
       ule, referred to as a “clock”; and Appendix C for a list of Chinese branch programs.)

           In addition to its daily radio programming, the Cantonese language service pro­
       duces a 5 ½ minute television program entitled, “American Report,” which is aired
       every Sunday evening on Asia Television, a Hong Kong television station owned by
       Asia Television Limited.

       Chinese Branch Production Quality

            In the early years of VOA broadcasts into China, the service’s higher production
       values, compared to local broadcasters, were a primary draw to listeners and view­
       ers. However, with increased access by the Chinese to state-of-the-art equipment
       and better trained technicians, the pendulum has swung. The Chinese branch under­
       stands that it is extremely difﬁcult, given its limited resources, to compete in terms
       of production quality with Chinese radio, television, and Internet companies, which
       employ the latest technology to produce programs designed to attract members of
       the Chinese audience. The Chinese branch’s answer to this challenge is to improve
       the quality of programming content and to enhance the uniqueness of its programs
       produced in and about the United States.




10 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





             USE OF INTERNET AND NEW MEDIA


     The China Market

         China is the leading market in the world for new media, in terms of actual num­
     bers of users. There are 384 million Internet users, equating to a 28.9 percent market
     penetration8 (the United States has 225 million users, or 73 percent market penetra­
     tion), and 640 million mobile device users, equating to a 49 percent market pen­
     etration (compared to 260 million users in the United States, or 85 percent market
     penetration).9 More importantly, the growth of new media access in China is several
     times that of the U.S. rate.

         Helping VOA’s Chinese branch develop a strategy and programs for new media
     outreach is a high priority for IBB-VOA, for both U.S. strategic reasons and market
     impact. To ensure its competiveness in this area, VOA has put the Chinese branch
     “at the front of the pack” in terms of funding and support, along with Spanish,
     Russian, and a few other targeted language services. In 2009, VOA received increased
     funding earmarked for Chinese online initiatives. IBB’s program review of the Man­
     darin service for 2009 indicated that the Mandarin Web site was among the most
     dynamic and content rich at VOA.

          The Chinese branch was one of the ﬁrst to switch to IBB-VOA’s new content
     management system. This new, more stable system for managing online material al­
     lows for a wider Web page, improved navigation, video streaming, and better interac­
     tivity. While adhering to the VOA template, the Chinese branch home page is denser
     than most of the other home pages, with a greater number of links and deeper
     archives, which is a conscious effort to appeal to unique Chinese tastes in the format­
     ting of online material.

          Despite its efforts, however, the Chinese branch has challenges making inroads
     in its new media initiatives. IBB documents for the Mandarin service’s 2009 program
     review state that—since access to the Internet is more easily controlled than

     8
      China Internet Information Center - http://in2marcom.com/2010/01/cnnic-25th-china-inter­
     net-development-statistical-report.html
     9
      Plus8Star market res Plus8Star market research data – April 2009 - http://www.slideshare.
     net/plus8star/new-media-in-china


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010         11 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       access to shortwave radio, international radio, and satellite—broadcasts such as
       VOA’s remain the only dependable source of political news, especially during crises.
       The IBB documents add that emails, proxies, and other Web applications can be
       effective at penetrating China’s ﬁrewalls. The branch is proud of its GoEnglish.Me
       language teaching program on the Internet, as well as the millions of emails it sends
       out daily to PRC Chinese Internet users.

           Two issues remain: access to audiences, and branding of the VOA product. Due
       to aggressive blocking by Chinese ofﬁcials, much of VOA’s material is “placed”
       on local host sites without attribution or branding, with the notable exception of
       VOA-branded English language teaching material. There is widespread use of VOA
       Chinese articles on PRC Web sites, including ofﬁcial sites (such as Xinhua, People’s
       Daily, China Daily, Gong Shang Times, and China Business News) that regularly post
       and plagiarize VOA news reports without giving credit to VOA. Without branding
       and content control, this material runs the increased risk of being altered and used
       out of context.

       New Media Strategy

           The Chinese branch lacks a clearly articulated strategy for the Internet and new
       media. The OIG team saw a list of online and mobile device initiatives, but there
       was apparently no written document with key strategic elements, such as background
       research, current situation, speciﬁc goals, appropriate staff/resource allocations, a
       timetable, or metrics. This lack of a detailed, transparent strategy creates staff uncer­
       tainty and confusion as to “the way ahead.”

           The director of the Ofﬁce of New Media explained to the OIG team that
       language services need to make a strong business case in order to tap into targeted
       new media funds. The Ofﬁce of New Media has a rule for supporting and funding
       new initiatives: “If you create something online or through mobile media, you have
       to commit the resources to properly maintain it. The site or program must have a
       very clear mission and purpose.” Sites must be original and refreshed constantly.
       Information must be accurate and up-to-the second, and the Web team needs to
       know about—and be ready to jump on—anything new. The branch chief noted that
       the Ofﬁce of New Media was created recently, perhaps a year ago. He has worked
       closely with the ofﬁce, but he was not aware that any “business plan” was necessary.
       This issue is discussed further in the strategic planning section of this report, below.

           Audience research can be a useful tool in building a strategy. VOA’s audience
       research contractor, InterMedia, and InterMedia’s Chinese subcontractor gathered
       focus groups in China. The Chinese branch discussed the focus group ﬁndings at


12 .               OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




     editorial meetings. Branch management noted that, while they received some helpful
     information from the research, they had serious reservations about some of the con­
     clusions drawn by members of the focus group. Some people reported that negative
     feedback from the focus groups was dismissed by VOA Chinese Branch manage­
     ment as not being from VOA’s current audience. The OIG team read the complete
     transcripts of the two focus groups, which were composed almost entirely of young,
     urban university students with a clear knowledge of various media formats and their
     potential for both education and entertainment. Not all the people in the groups may
     be familiar with VOA’s mission, but they are an important target audience The OIG
     team concluded that information from these focus groups should be considered
     when planning changes or enhancements to programming, format, and delivery.

         The VOA English language service has full-time Web technician/Internet pro­
     duction specialist positions, staffed by people with speciﬁc, directly applicable skills.
     Similar positions are ﬁlled by contractors in the Chinese branch, who are recruited
     for a broader skill set. Those with the requisite skills often are assigned duties that
     are unrelated to their background. Web team staff members have voiced the concern
     that the full-time staff who are assigned as Web editors often lack the speciﬁc Inter­
     net training and experience to be effective supervisors. The Chinese branch manage­
     ment indicated that it had asked for additional regular employees (that is, full-time
     equivalent employees) for the Internet, but it was given only POVs, because there
     were no more full-time equivalent slots—an outcome that was beyond the control of
     the management. When full-time equivalent slots become available, the branch hopes
     to hire full-time production specialists.

     Online User Metrics

         Online viewer/visitor metrics are hard to gather and quantify, especially in China.
     The standard methodology used by InterMedia (passive surveys and one-on-one
     interviews) has limitations. As in other closed countries to which VOA broadcasts,
     responders are often reluctant to admit openly to accessing blocked material, and
     they are usually unaware that content “placed” on host sites without branding or at­
     tribution is VOA-produced. Metric data gathered locally (by local contractors) cannot
     always be trusted and may not break down the data clearly enough to measure the
     target audience (younger, urban, etc.).




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010        13 .


                          SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




           The BBG ofﬁce of new media has just received permission to use “persistent”
       cookies (tracking unique visits) to help with visitor metrics, which will enhance the
       data gathered from “session” cookies (measuring total site visits). In addition, the
       VOA Chinese branch posts videos of its programs to YouTube, which keeps a
       running tally of “hits.” These metrics are far from perfect and do not capture the
       desired demographic information, but they are a start.

       Mobile Devices

           Beyond the Internet, the new media ofﬁce is looking to mobile devices (iPhones,
       Droids, etc.) as the next “big thing.” China is the world’s largest mobile telephone
       market. As of September 2009, China boasted 700 million mobile phone users,
       representing a 65.9 percent penetration of the overall population.10 The new media
       ofﬁce is working to develop programs to work on these new platforms. MobileTech
       has been contracted to develop a program that recognizes a mobile device’s platform
       capability (text only, graphics, video, etc.) and automatically deliver the most robust
       program available. These programs may be blocked by Chinese ofﬁcials, but the new
       media ofﬁce is committed to keep trying new things.

           New media are, by their very nature, multifaceted. A language service will never
       be able to ﬁnd one size that ﬁts all—and, according to subject matter experts, new
       media users want it that way. Therefore, it is incumbent on the Chinese branch to
       ﬁnd its niche audience and deliver unique, high quality content to that audience. This
       approach seems to be the best way to compete in today’s market. VOA already has
       a “foot in the door,” in the form of its popular English language teaching material.
       Developing programs and content speciﬁcally for mobile devices is becoming more
       and more important. Taking advantage of this new, robust platform, and not just
       reformatting material from radio, television, or the Web, will be crucial in retaining or
       gaining audience share.

           The Chinese branch needs to clearly deﬁne its mission online and develop a
       strong strategy for moving toward mobile delivery. Strategic planning is discussed
       later in this report.




       10
            Ministry of Information of the PRC – http://www.chinatoday.com/med/a.htm


14 .                  OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                       COMBATING CENSORSHIP

         The Government of the PRC is openly hostile to many of the branch’s activities,
     having declared VOA to be a “subversive organization.” Both language services of
     the Chinese branch understand that their ability to reach their target audiences is very
     limited. As noted before, the Government of the PRC consistently has blocked VOA
     transmissions from reaching its citizens. The Chinese authorities routinely simulcast
     on frequencies used by VOA radio; refuse to allow VOA television programs (except
     English language courses and certain cultural or travel programs) to be placed with
     mainland Chinese television stations; and devote considerable resources to maintain­
     ing the “Great Firewall,” which is designed to keep its citizens from (among other
     things) accessing VOA Web sites.

         Supported by IBB, the Chinese branch engages in an active campaign to give
     Chinese Internet users a chance to use proxy servers, thereby circumventing the
     PRC’s Internet ﬁrewalls. Emails are sent daily to Chinese Internet users, to inform
     them of these proxy servers. To develop its list of email recipients, the Chinese
     branch collected more than 20 million email addresses, then used IBB’s anti-censor­
     ship money to hire an outside contractor to cull down the list and take over delivery
     of the branch’s daily email messages. As a result, the number of outgoing emails
     increased from 300,000 to 8 million per day.

         To counter jammed radio signals, VOA broadcasts on seven or eight shortwave
     frequencies, hoping that at least one frequency is not blocked at any given time. The
     shortwave signals reportedly have the best chance of being received in rural areas.
     To ofﬁcially confront the problem of signal jamming, the Federal Communications
     Commission, on behalf of IBB, submits each month an ofﬁcial complaint to the
     Chinese Government (with a copy to the International Telecommunication Union)
     on Chinese interference to IBB shortwave transmissions originating at U.S. sites. IBB
     notes that this process has been followed for at least a decade, with no effect. In ad­
     dition, representatives from China and the United States attend twice yearly confer­
     ences to coordinate their usage of radio frequencies. The OIG team was told that
     the Chinese have been reticent about talking to IBB members at these conferences.




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010       15 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       MEASURING EFFECTIVENESS
           IBB’s ofﬁce of performance review conducts an annual review of each VOA
       language service. Through this process, the Mandarin and Cantonese services have
       one internal tool to measure their own quality and effectiveness (through audience
       research), with an opportunity to make needed changes. However, the VOA is look­
       ing for additional ways to measure effectiveness and impact.

           BBG has a 5-year contract with InterMedia, of Washington, DC, to conduct
       audience research in the PRC (as well as in many other countries around the world).
       InterMedia’s latest annual poll within the PRC interviewed over 8,000 individuals.
       Both the VOA Chinese branch and Radio Free Asia had the opportunity to review
       the questions and suggest changes, prior to the interviews. A polling sample of 8,000
       seems miniscule, given the 1.3 billion population of the PRC, but it is large when
       compared to media polling efforts in other countries, including the United States.

            The results of InterMedia’s audience research are not encouraging for either the
       VOA’s Chinese branch or Radio Free Asia. A recent InterMedia report showed that
       almost all people in China get their information from television. After that, in order,
       they use newspapers, the Internet, short messaging service, and friends and relatives.
       The use of the Internet as a source for news is increasing, with over 10 percent of
       the population (130 million) turning to the Internet for news on a daily basis. After
       all these options, people use the radio. It is difﬁcult for the Chinese branch to ap­
       ply these statistics to its programming, however, because satellite television is illegal
       in China, and the Internet is strictly censored; at least radio, although it is the least
       popular option, does have a chance of reaching an audience.

           Based on information for November 2008, only one-tenth of one percent of the
       Chinese population is listening to VOA’s Mandarin language service radio broadcasts.
       VOA’s television broadcasts also received this rating. The same ﬁgure applies to the
       Cantonese language service radio broadcasts. Interestingly, the data for listeners of
       VOA English programs is somewhat higher: two-tenths of one percent of respon­
       dents reported listening to VOA English programs within the last 7 days, while 31.1
       percent of the respondents had listened to VOA’s Special English programs within
       the last 7 days.

            These InterMedia ﬁgures, however, do not tell the whole story. Branch manage­
       ment said that audience research in a closed society is difﬁcult to conduct and does
       not necessarily give an accurate picture of the branch’s input, because of the sensi­
       tivity of getting respondents to answer. The Chinese branch has its own means of
       assessing impact. For example, the Mandarin language service lists in its 2009 VOA


16 .               OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




     program review documents that, among other things, VOA is the number one inter­
     national broadcaster in China; VOA’s daily radio and televised call-in shows process
     about a thousand calls from mainland China every month; and VOA managers re­
     ported receiving between 6,000 and 17,000 emails, letters, and phone calls a month.

         Radio call-in shows routinely elicit a number of calls from listeners in China.
     While there are some repeat callers, the Chinese branch endeavors to screen the calls
     and accept only new callers. The branch receives emails and other communications
     from the Chinese audience, even though writing and mailing letters to the branch
     is considered “counterrevolutionary” correspondence. Inadvertent mistakes made
     by Chinese branch broadcast hosts are quickly noted in emails from listeners in the
     PRC. Even PRC Government spokesmen have been known to quote VOA broad­
     casts when they believe them to support their position on a particular issue. The
     conclusion is that the VOA message is getting through to a portion of the audience
     in the PRC. The unanswerable question is the size of that portion.

          The goal of the BBG is to deliver news based on objective journalistic standards
     to audiences who otherwise would not have access to such news. Its goal is also to
     offer audiences the interaction and dialogue with BBG broadcasters and with each
     other that they, the audiences, increasingly seek through new media. It is this latter
     goal in which the Chinese branch excels. Its English language teaching programs are
     picked up by many mainland Chinese radio stations and rebroadcast. Granted, these
     rebroadcasts are unbranded and do not credit VOA for the production, but they are
     broadcast to a signiﬁcant portion of the Chinese audience. The same is true of VOA
     programs (such as the television show, “Cultural Odyssey”), which provide features
     on how Americans lead their lives. This unbranded pick-up of VOA programming
     by the local media may also account for the discrepancies between InterMedia statis­
     tics and anecdotal evidence provided by the Chinese branch.




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010     17 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





18 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                    MAINTAINING JOURNALISTIC
                           STANDARDS

         BBG and its entities consider their journalistic reputation to be their most impor­
     tant asset. The Chinese branch operates under the journalistic standards mandated
     in the VOA Charter (P.L. 94-350 and 103-415) and broader principles laid out in
     the legislation. The Chinese branch at all levels provides the Journalistic Code to its
     workers; branch managers and editors stress the importance of adhering to its prin­
     ciples, and some editors emphasize it every day in the course of preparing content.
     Daily editorial meetings keep the management focused on its product.

         Some of the staff receive materials on standards when they entered VOA ser­
     vice; others learn on the job. Many of the staff have advanced degrees and are highly
     experienced journalists. Orientation training for POVs had dropped off for a period,
     but it was reinstituted recently so that POVs know the standards of the organization.
     A few people expressed concern that, although the principles are understood, they
     are interpreted differently by less experienced workers. People at all levels generally
     are aware when their coworkers are unfamiliar with standards and try to help them.
     A few people mentioned the challenge of fact checking and double verifying sources
     when time is limited, as is usual in the profession.

         All work is reviewed by the editor in charge of a certain show or production.
     Materials that come to the branch in English from VOA’s Central News are reviewed
     in Central News ﬁrst. They then are translated into Mandarin or Cantonese at the
     branch level, where the translations receive another review before going out.

          The written standards are available on VOA’s intranet site, under “Journalistic
     Standards & Practices.” Among the site’s listings are the VOA Charter, the Journal­
     istic Code, the VOA Newsroom Stylebook, and the editors’ checklist, with a section
     for new media guidelines.




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010      19 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





20 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED





                            STRATEGIC PLANNING

         The Mandarin and Cantonese language services comply with the instructions to
     participate in the BBG’s strategic planning process—a major endeavor to create a
     plan under which all of BBG’s entities operate. As part of the strategic planning pro­
     cess, the language services prepare SWOT (strength, weakness, opportunity, threat)
     analyses, which are then factored into the eventual planning of the VOA and, on a
     larger scale, into the planning of the BBG.

          These SWOT analyses are designed to provide the BBG with in-depth views of
     reality, as seen “on the ground” by the BBG’s broadcasters, including both VOA lan­
     guage services and BBG grantees, such as Radio Free Asia and other surrogate radio
     stations. In the case of the Mandarin language service, for example, the latest SWOT
     analysis identiﬁed the following opportunities:

         1. Unlimited potential for new media;
         2. Audience thirst for alternatives to state run media; and
         3. America remains the most intriguing and important country to the Chinese
           people.

         Weaknesses were listed as:

         1. Insufﬁcient resources and infrastructure for television and new media;
         (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

         3. Lack of clarity in market analysis provided by InterMedia BBG Research.

          The Mandarin and Cantonese language services’ SWOT analyses did not iden­
     tify the ﬁnancial and personnel resources needed to move their respective services
     forward strategically. In addition, although the Chinese branch and the EAP division
     have opportunities to comment on draft versions of the strategic plan as it is sub­
     sequently developed at the BBG level, these comments remain, for the most part,
     generalities that apply to the overall strategy of the larger organization.




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010     21 .


                           SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           In commenting on a draft of this report, BBG provided more information on
       the overall strategic planning process. According to BBG, the Mandarin and Can­
       tonese language services prepare performance plans each year, which align with the
       BBG’s strategic plan and outline their objectives and targets for the current year
       and the next 2 years. These plans require the language services to choose where to
       focus their energy and resources over the 3-year period. During annual revisions, the
       services examine their performance for the past year against their targets, and include
       any new initiatives to be undertaken. These plans should be realizable with current
       and planned resources, but they do allow an opportunity to discuss “future challeng­
       es and strategies” that may require additional funding in the future.

           In addition, as part of the annual language service review process required by
       BBG’s authorizing legislation, the BBG board considers the addition and deletion
       of language services. They examine the priority and impact of each language ser­
       vice. For the language service review in 2010, BBG staff members, including the
       chief ﬁnancial ofﬁcer and director of strategic planning, are meeting with the service
       directors of every BBG language service, including VOA’s Mandarin and Cantonese
       services, together with senior VOA management, to discuss the BBG broadcasters’
       role in their particular media markets, and to understand the challenges they face.

           The Mandarin and Cantonese language services also prepare annual budgets for
       their operations. According to BBG, the portion of these budgets prepared by the
       services is limited in scope, being essentially for general operating expenses. Funding
       for full-time staff salaries, marketing, and new media initiatives is centrally managed
       by VOA and IBB. Funding for new initiatives or additional programming is request­
       ed through the formal annual enhancement request process. Personnel and resource
       needs are spelled out in detail, and performance goals are set. These requests are
       made through VOA management and then are sent to the BBG Board to decide
       which will be included in the budget submission to the Ofﬁce of Management and
       Budget.

            The OIG team learned that, in spite of BBG’s extensive strategic planning pro­
       cedures, both the language services managers and the management of the EAP divi­
       sion to which they report are wary of proposing new initiatives or asking for large
       increases in their budgets—for example, to reﬂect the full estimated costs of adjust­
       ing their operations to new technologies. They fear that, if an initiative is approved,
       it will not include additional funding—and the language services will be forced to
       reduce their existing operations to accommodate the new initiative. As a result, an­
       nual budget requests by the Chinese branch are generally limited to small percentage
       increases over previous funding levels to maintain ongoing operations and to ac­
       count for cost inﬂation.


22 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



         Given the tightly controlled nature of the media environment in China, the
     branch chief believes that the best strategy is to concentrate on generating original
     content, rather than on a particular option for getting its programming into China.
     The Mandarin language service’s annual performance plan for FY 2010-12 calls for,
     among other things, holding a conference in Washington, DC, for Chinese broad­
     casting stations to promote the VOA journalism program inside China, establish a
     Shanghai Reporting Bureau, and develop opportunities to place VOA products. All
     of these goals show an attempt to foster working relationships with the Chinese.

         Managers for the Chinese branch perceived a disconnect between strategic plan­
     ning at the level of the BBG and the working levels of the language services. It was
     outside the scope of this inspection to determine whether this situation is typical of
     other VOA language services.

     Keys to Success

         The Chinese branch and EAP division managers told the OIG team of three
     keys to success that, if implemented, could greatly increase their ability to reach the
     targeted audiences of the PRC.

         First, physical access into the PRC is critical. Across the board, the most com­
     mon complaint of the Chinese branch’s management, echoed strongly by the di­
     rector of VOA’s EAP division, is the Chinese Government’s refusal to grant visa
     requests made by VOA reporters or employees wishing to travel to the PRC. While
     reporters of the major news organizations in the PRC, which are state run, routinely
     obtain visas to work and report in the United States, VOA reporters and employees
     are consistently denied visas to enter the PRC. The VOA sees this problem as an
     issue of reciprocity and believes that it seriously and negatively impacts its ability to
     do its job and ultimately to reach the target audiences within the PRC. The Chinese
     branch manager and his division director adamantly support the exercise of strict
     reciprocity by the U.S. Department of State in the issuance of visas to reporters.

         The VOA Director and the Chinese branch chief visited the VOA bureau in
     Beijing in October 2008 to meet with Chinese Government ofﬁcials to try to gain
     more access for VOA news and China branch reporters. At the time of the OIG in­
     spection, VOA leadership continued to be actively engaged in the issue. VOA’s EAP
     division stressed that the number of visas allocated to VOA should be equivalent to
     those offered to Xinhua, CCTV, and other state run Chinese media organizations.
     Those granted by China to NBC, ABC, and other commercial U.S. broadcasters
     should not count against VOA. The branch was looking for U.S. assistance from a
     champion of the cause or from higher levels of the U.S. Government.


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010        23 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



            Second, the Chinese branch needs an end to signal jamming and interference by
       the Chinese authorities (see previous section on combating censorship). Access to
       the Chinese market continues to be extremely difﬁcult, although the Chinese branch
       is starting to see incidents of placement of English language, cultural, and travel pro­
       grams on a number of Chinese radio stations, without the VOA logo. VOA English
       language publications occupy prominent shelf space in Chinese bookstores, and the
       VOA logo is considered a major selling point for these publications’ popularity. It is
       evident that the Chinese Government welcomes (or tolerates) certain VOA programs
       and products as long as they do not cross a line that involves hard news reporting.

            Several people noted that the branch needs to focus on niche areas, such as
       reporting on items of a business, cultural, and Americana nature, and on English
       language teaching programs—areas the Chinese Government does not see as threat­
       ening. Doing so would enable the Chinese branch to meet the BBG’s established goal
       of increasing dialogue between the United States and its target audiences, although it
       is still bound by the VOA charter and the mandate to be comprehensive.

           Third, the branch must have the personnel and ﬁnancial resources to provide
       both the quality and quantity of programming that can compete with the Chinese
       news organizations. The Chinese Government is spending enormous sums of mon­
       ey to modernize and expand the capacities of its domestic and international news
       services. According to BBG, given the restrictive media environment and the budget
       currently available to the VOA’s Chinese branch, competition with the Chinese media
       organizations is not feasible. Absent a radical change in the media environment or a
       huge infusion of funds, which no one foresees, the solution appears to concentrate
       on programming that ﬁts the niche areas described above and that offers a uniquely
       American focus that will be of interest to the Chinese audience but is unavailable to
       the Chinese news organizations.



       MAKING THE BUSINESS CASE
            The difﬁcult situation VOA’s Chinese branch faces requires more than the tra­
       ditional BBG planning process. As mentioned in the section on new media, above,
       the branch needs a detailed, transparent, and clearly articulated strategy, including
       key business plan elements such as background research, current situation, speciﬁc
       goals, appropriate staff/resource allocations, a timetable, and metrics. The OIG team
       encourages the Chinese branch to consider the keys to success outlined immediately
       above, as it develops this strategic plan. It would behoove the branch to make the ex­
       tra effort to prepare a budget submission, highlighting areas that could use additional


24 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



     funding and explaining why. Even if doing so has appeared to be a waste of time
     in the past, a rigorous effort should be made now. Making this effort is important,
     because the seating of a new BBG Board might mean increased receptivity to well
     argued requests for increased funding and strategic change.

         Since the budget planning procedure is for the current ﬁscal year and the two
     following years, it does not require the long term planning that would most beneﬁt
     the Chinese branch at this time. Such long-term planning should include any changes
     in operations, changes in programming, and the personnel and funding required to
     reach inside the PRC to implement those changes.


        Recommendation 1: The Chinese branch of the Voice of America, in coor­
        dination with Voice of America’s East Asia Paciﬁc division, the International
        Broadcasting Bureau, and the Broadcasting Board of Governors, should de­
        velop a long-term strategy that includes all the key elements of an effective
        business plan. (Action: VOA Chinese branch, in coordination with VOA/EAP,
        IBB, and BBG)




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010   25 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





26 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                       RESOURCE MANAGEMENT

         Funding Source            Number of           Salaries         General          Total
                                   Direct Hires                        Operating        Funding
                                                                       Expenses
      VOA Chinese Service
      Funds FY 2009                      79           $9,347,000       $2,417,000      $11,764,000
      FY 2010 Target                     83           $9,846,000       $2,525,000      $12,371,000

       At the time of this inspection, the Chinese branch was using approximately 55
     POVs. This number ﬂuctuates during the year.



     HUMAN RESOURCES
         The two administrative assistants and one administrative ofﬁcer of the branch
     handle such areas as contract modiﬁcation and payment processing for contractors,
     time and attendance for employees, and travel vouchers and travel grants. Over the
     past two years, the current incumbents have established an excellent reputation for
     providing timely and responsive service, as noted by branch management and IBB
     contracting ofﬁcers and as commented on by a number of the employees and con­
     tractors interviewed by OIG.

     Position Descriptions and Job Classiﬁcations

         The BBG Ofﬁce of Human Resources (HR) provides excellent support to the
     VOA Chinese branch. In particular, a major review of all position descriptions and
     job classiﬁcations is in process. Initiated 3 years ago, the purpose of the lengthy re­
     view in VOA is to update positions previously known predominantly as international
     radio broadcasters, to include more descriptive information that reﬂects the expan­
     sion to television production and work with the Internet and new media. In conjunc­
     tion with this review, the language service chief completed questionnaires giving the
     details of which positions were performing higher level work, especially as regards
     expansion into these new ﬁelds. A senior human resources specialist is working with
     these questionnaires and the existing position descriptions to create more detailed


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010            27 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




       and tailored descriptions that better reﬂect current realities in the Chinese branch.
       This major review of the Mandarin service positions will likely extend into the fall of
       2010. (The Cantonese service, which is much smaller, already has been reviewed and
       reclassiﬁed as necessary.) In some cases, HR will present the possibility of promo­
       tions for higher level work, subject to the approval of the BBG board and the avail­
       ability of funds to support the promotions.

       Recruitment and Hiring

             HR also provides strong support to the Chinese branch in recruitment. The OIG
       team reviewed the procedures used to recruit and ﬁll open positions in the Chinese
       branch (as well as all the other language services) and found them to be in accor­
       dance with BBG procedures. The intranet describes these procedures in detail. When
       the branch or division chief submits and approves (with VOA Director clearance) an
       SF-52 Personnel Action to Recruit to HR, then HR prepares a vacancy announce­
       ment using the current job description, with any modiﬁcations suggested by the
       service chief. Some levels of positions require passing a Mandarin or Cantonese
       language test. Applicants who pass the test and possess other requisite qualiﬁcations
       will populate a rank-order register for that language, which is kept in the designated
       examining unit. When the specialist is given an action to recruit, she requests a cer­
       tiﬁcation of eligibility (list of candidates) from the designated examining unit. This
       list is made available to the hiring manager. Positions at the GS-12 level and above do
       not need testing. If the selection is for a supervisory position at the GS-13 level or
       above, an approval by the VOA Director is necessary.

            Contractors or POVs currently employed by the branch may apply for open
       positions. If they pass the appropriate test, they have a legitimate chance to be hired
       as employees. In general, open positions are posted internally on the intranet, on
       the BBG Web site, on the branch’s Web site, and on bulletin boards throughout the
       agency. They also are listed on the Ofﬁce of Personnel Management’s USAJOBS
       Web site, and frequently with other known sources of candidates, such as other Web
       sites or newspapers overseas.

            To hire from overseas presents another level of challenge, due to security/suit­
       ability reviews required and the processing of the J-1 visas to get the successful
       candidates to the United States.




28 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




     Performance Evaluation

         The OIG team found that the Chinese branch has a comprehensive set of cur­
     rent performance evaluations; the OIG team reviewed a sampling of these evalua­
     tions and found that they were properly ﬁlled out and accurately reﬂected the em­
     ployees’ performance.

     Training Programs

         The executive ofﬁcer of EAP division provides the administrative ofﬁcer and ad­
     ministrative assistants with a complete list of the types of training programs that are
     available to employees. Employees then can request training through these programs,
     and the branch chief will give approval, subject to operational needs and budget
     availability. As noted below, the Ofﬁce of Civil Rights publicizes and ensures compli­
     ance with the annual or semiannual online training on sexual harassment and preven­
     tion awareness and the No Fear Act.

         In recent years, the training budgets have been slashed signiﬁcantly. Last year
     for the ﬁrst time, the training budget was restored to the level of previous, less
     constrained times. The top priority for the Chinese branch is to accomplish manda­
     tory training in journalism and journalistic ethics, as well as contracting and contract
     administration. Recent efforts have also led to training in new media applications.

         With regard to orientation for new employees and contractors, some employ­
     ees had received a brief orientation in the BBG HR ofﬁce, but few had received an
     orientation in the Chinese branch. Branch management has recently reinstituted an
     orientation program for employees and contractors.

     Awards and Recognition

         VOA cash award budgets are given to the divisions, and the EAP division chief
     allocates cash awards to the Chinese branch (as well as the other branches) based in
     part on the recommendations of the branch chief. There are no awards ceremonies,
     per se, at the China branch; awards often are distributed after a staff meeting. The
     intranet lists the rules for awards, and how one can qualify. (b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
     (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)     It appears that the information about awards
     and how they are given out is not moving effectively from the intranet and/or infor­
     mational emails to the employees. (See section on communications and transparency,
     below.)


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010                 29 .


                           SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           The OIG team left an informal recommendation that the Chinese branch hold
       a semiannual (or annual) awards ceremony, where the rules for the awards are ex­
       plained in detail and those receiving awards receive recognition. (The ceremony
       could be recorded and made available to those working on the early or late shifts.)
       This recognition of signiﬁcant extra effort also might serve to motivate other em­
       ployees to increase their efforts. Non-cash honors, such as day off awards, are being
       used sporadically. Expanded use of these awards, and even the use of certiﬁcates
       of appreciation for special efforts (such as coping with a news-heavy crisis or a
       government-closing blizzard), could further expand the beneﬁts of an active awards
       program.

       Equal Employment Opportunity/Employee Relations

           Through the intranet and broadcast emails, most employees in the Chinese
       branch are aware of the Ofﬁce of Civil Rights and how it can help them if they have
       problems or disputes at work. Sporadically, employees from the Chinese branch will
       come in to talk to an Ofﬁce of Civil Rights counselor to get a better understanding
       of their rights. During the last ﬁscal year, the ofﬁce received only one formal civil
       rights complaint by an employee from the Chinese branch; there were no other com­
       plaints during the last 5 years.

           As of January 2010, the Ofﬁce of Civil Rights initiated sexual harassment and
       prevention awareness online training sessions, which are mandatory for all employees
       on an annual basis. In addition, online training in the No Fear Act, aimed at provid­
       ing certain protections to employees who have ﬁled Equal Employment Opportunity
       and whistle blower complaints, is also mandatory every 2 years for all employees.

           According to the BBG Ofﬁce of Employee Relations, there have been no major
       disciplinary problems in the Chinese branch in recent years.

       Communications and Transparency

           The Chinese branch is making considerable efforts to communicate to employees
       and contractors. In addition to using an information-laden intranet site and frequent
       broadcast emails, the branch chief conducts weekly editorial meetings and quarterly
       staff meetings. Nonetheless, one of the most frequent complaints is a perceived lack
       of transparency and communication. One contributor to the apparent disconnect
       between “sender” and “receiver” of information appears to be that a number of
       employees are either unaware of the intranet or are not disposed to use the intranet




30 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




     to ﬁnd answers to their questions. Although most employees admitted that “they got
     a lot of emails,” it seems many people do not read them. Some of the staff indicate
     they would like to have a regular forum or channel for asking questions and address­
     ing issues.

         The OIG team has left an informal recommendation that the Chinese branch
     conduct one or more town hall meetings aimed at all employees and contractors
     (taped for redistribution), to serve as a refresher on how the information ﬂows at the
     organization, and where to ﬁnd it. Such meeting(s) also could present an opportunity
     to solicit questions about issues that might be troubling the employees.




     FINANCIAL MANAGEMENT, PROCUREMENT, AND INVENTORY
     Contracting for Talent/Purchase Order Vendors

        As noted, the Chinese branch uses POVs to supplement full-time staff, as do
     other VOA language services. BBG and VOA management are well aware of the
     problems associated with this procurement mechanism and are studying the issue.

         Conditions described by both management and contractors—such as signing in
     and signing out, payment on an hourly basis rather than by unit or job, membership
     on teams alongside government employees, rotating between functions within teams
     interchangeably with government employees, and working under a government
     employee team leader—led inspectors to question the maintenance of independent
     contractor status.

         The OIG team is concerned that the Chinese branch, by using contract person­
     nel under conditions outside the guidelines established in the BBG Contracting for
     Talent & Other Professional Services Handbook (which in turn draws upon and
     references the Federal Acquisition Regulation) may not be maintaining POV status as
     independent, nonpersonal services contractors. The BBG Contracting for Talent &
     Other Professional Services Handbook states, on page II-1:

             Federal regulations generally prohibit the acquisition of personal services by
         contract, rather than by direct hire of employees. It is therefore important that
         contractors perform, and are administered in such a way as to maintain their
         status as “independent contractors.”




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010     31 .


                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




           An IBB ofﬁcial said that as part of its human capital plan, a committee had been
       formed, and was in the process of reviewing the use of POVs. The committee is
       tasked with developing a strategy on the use of contractors and maintaining dis­
       tinctions between full-time employees and POVs. A BBG ofﬁcial said that a review
       of the Contracting for Talent & Other Professional Services Handbook is being
       planned, to bring the handbook in line with governing U.S. Government statutes and
       regulations. OIG management and BBG agreed that BBG needs to review the ar­
       rangements, applicable agency guidelines, and governing U.S. Government laws and
       regulations and, if needed, take corrective action to adjust the arrangements and/
       or revise and update the guidelines (e.g., handbook), and correct any deﬁciencies, if
       found.


          Recommendation 2: The Broadcasting Board of Governors should review
          the contracts, and the manner of their administration, of purchase order ven­
          dors in the Voice of America’s Chinese Branch to determine whether the con­
          tracts and current manner of administration constitute nonpersonal service
          status. (Action: BBG)




          Recommendation 3: The Broadcasting Board of Governors also should
          review and update the BBG Contracting for Talent & Other Professional Ser­
          vices Handbook. (Action: BBG)



       Financial Management

           The Chinese branch generates a budget proposal annually and receives its fund­
       ing from the BBG. The proposed budget usually replicates the current year’s target,
       raised by a certain percent. Occasionally, the branch will receive a budget enhance­
       ment for a speciﬁc purpose, such as creating a Web site.

       Requisitions

          Requisition procedures are in place (based on the Momentum ﬁnancial manage­
       ment system) and are sufﬁcient to ensure funds are used properly.

          Requisitions are prepared by administrative staff in the Chinese branch and ap­
       proved by the branch chief. An administrative assistant receives expendable supplies
       and secures them in a locker until issuance. Nonexpendable property also is acquired

32 .              OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                    SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




     by requisition, with branch chief approval, subject to availability of funds. The Mo­
     mentum system does not permit purchases in the absence of funds, according to the
     contracting staff.

     Property Management and Inventory

         At the time of the inspection, the annual inventory of accountable property was
     underway; the inventory is conducted by the executive producer of the EAP division.
     There are two inventory programs in use at VOA. The program used by the language
     services for tracking nonexpendable property is part of a program administered by
     the engineering branch.

         When accountable property arrives, the accountable ofﬁcer enters it into the
     inventory system. For conducting inventory, the accountable ofﬁcer sends electronic
     property record pages to the individuals holding property. The employees then sign
     the sheets conﬁrming they retain the property item, and return the record to the ac­
     countable ofﬁcer. The system generates signiﬁcant paper records, which are kept in
     a ﬁle. There is no capitalized property in the inventory, because the branch does not
     have any items worth over $25,000.

         The accountable ofﬁcer noted there is legacy branch property that predates the
     present inventory method is not logged on the system. When these items are turned
     in for disposal, their records cannot be located in the current system, and their value
     cannot be determined.

         The accountable ofﬁcer, when receiving property, afﬁxes a bar code label to each
     accountable item. At the time of inspection, however, the branch did not have a bar
     code scanner. The OIG team has made an informal recommendation about the need
     for this equipment.




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010      33 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





34 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                    LIST OF RECOMMENDATIONS

     Recommendation 1: The Chinese branch of the Voice of America, in coordination
       with Voice of America’s East Asia Paciﬁc division, the International Broadcasting
       Bureau, and the Broadcasting Board of Governors, should develop a long-term
       strategy that includes all the key elements of an effective business plan. (Action:
       VOA Chinese branch, in coordination with VOA/EAP, IBB, and BBG)

     Recommendation 2: The Broadcasting Board of Governors should review the
       contracts, and the manner of their administration, of purchase order vendors in
       the Voice of America’s Chinese Branch to determine whether the contracts and
       current manner of administration constitute nonpersonal service status. (Action:
       BBG)

     Recommendation 3: The Broadcasting Board of Governors should review and up­
       date the BBG Contracting for Talent & Other Professional Services Handbook.
       (Action: BBG)




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010    35 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





36 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED





                  INFORMAL RECOMMENDATIONS

      Informal recommendations cover operational matters not requiring action by
      organizations outside the inspected unit and/or the parent regional bureau. Informal
      recommendations will not be subject to the OIG compliance process. However, any
      subsequent OIG inspection or on-site compliance review will assess the mission’s
      progress in implementing the informal recommendations.

      Awards Program

      Information about the awards program and how awards are given out is not clearly
      understood by the branch employees, despite efforts to publicize them via broadcast
      email and the intranet.

      Informal Recommendation 1: The Chinese branch should hold a semiannual (or
      annual) awards ceremony, where the rules for awards are explained in detail, where
      those receiving awards get recognition, and where this recognition of signiﬁcant
      extra efforts might serve to motivate other employees to increase their efforts.
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)

      Property Inventory

      The EAP division does not have a barcode scanner that works. Having one would
      facility its inventory management.

      Informal Recommendation 3: The Voice of America, East Asia Paciﬁc division,
      should acquire a barcode scanner.


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010                          37 .


                            SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





38 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





         VOICE OF AMERICA CHINESE BRANCH
                PRINCIPAL OFFICIALS

     Position                                           Name                          Arrival Date


     VOA Chinese Branch Chief                           William Baum                        April 2000


     Mandarin Service Chief                             Dahren Luo                          Sept. 1979


     Cantonese Service Chief                            George Deng                         June 1999




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010                39 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





40 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                                  ABBREVIATIONS

     BBG                         Broadcasting Board of Governors
     EAP                         East Asia Paciﬁc Division
     HR                          BBG Ofﬁce of Human Resources
     IBB                         International Broadcasting Bureau
     OIG                         Ofﬁce of Inspector General
     PRC                         People’s Republic of China
     Department                  U.S. Department of State
     VOA                         Voice of America




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010   41 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





42 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





                APPENDIX A: VOICE OF AMERICA
                  MANDARIN SATELLITE FEED

        July 5, 2009               VOA Mandarin Satellite Feed
      Beijing Time UTC                    Program Content                  Type/Hour         Source
        8:00 a.m.  0000                    America Today                      Live          Studio 16
         9:00 a.m.        0100    Business News/English Learning            Produced  Dalet/MC
         10:00 a.m.       0200             America Today                    Produced  Dalet/MC
         11:00 a.m.       0300     Window-World News/Business              Repeat-UTC Central Rec
                                              News                            2200
         12:00 p.m.       0400             America Today                   Repeat-UTC Central Rec
                                                                              0000
         1:00 p.m.        0500    Business News/English Learning           Repeat-UTC Central Rec
                                                                              0100
         2:00 p.m.        0600               America Today                 Repeat-UTC Central Rec
                                                                              0000
         3:00 p.m.        0700         English Learning/Music                Produced       Dalet/MC
         4:00 p.m.        0800    Business News/English Learning             Produced       Dalet/MC
         5:00 p.m.        0900        English Learning/Music                   Live         Studio 16
         6:00 p.m.        1000               America Today                      Live        Studio 16
         7:00 p.m.        1100         Window-World News                        Live        Studio 16
         8:00 p.m.        1200       Window-China/Asia News                     Live        Studio 16
         9:00 p.m.        1300      Simulcast Daily TV Programs                 Live        Studio 47
         10:00 p.m.       1400         Window-World News                        Live        Studio 16
         11:00 p.m.       1500           Window-World News                 Repeat-UTC Central Rec
                                                                              1100
         12:00 a.m.       1600        Window-China/Asia News               Repeat-UTC Central Rec
                                                                              1200
         1:00 a.m.        1700      Simulcast Daily TV Programs            Repeat-UTC Central Rec
                                                                              1300


     Table continued on next page


OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010               43 .


                          SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       Table continued
         2:00 a.m.     1800           Window-World News                  Repeat-UTC       Central Rec
                                                                            1400
         3:00 a.m.     1900     Business News/English Learning           Repeat-UTC       Central Rec
                                                                            0800
         4:00 a.m.     2000               America Today                  Repeat-UTC       Central Rec
                                                                            0000
         5:00 a.m.     2100          English Learning/Music              Repeat-UTC       Central Rec
                                                                            0700
         6:00 a.m.     2200      Window-World News/Business                 Live           Studio 16
                                          News
         7:00 a.m.     2300      Window-World News/Business              Repeat-UTC Central Rec
                                          News                              2200




44 .            OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                     SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED





             APPENDIX B. CANTONESE SERVICE
                         CLOCK




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010   45 .


                          SENSITIVE BUT UNCLASSIFIED
        SENSITIVE BUT UNCLASSIFIED





46 .   OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED





                APPENDIX C. VOICE OF AMERICA
                 CHINESE BRANCH PROGRAMS

     Video:
     American Report                   6-minute weekly report on American
                                          culture in Cantonese and Mandarin
     Issues and Opinions               60-minute live current affairs program, Mon-Thur.
     Pro and Con                       30-minute live current issue debate program, Fri.
     Cultural Odyssey                  30-minute arts and entertainment, Fri, pre-taped
     Health Forum                      60-minute live health and medicine show, Sat.
     Strait Talk                       60-minute live discussion of cross-Strait [of Taiwan]
                                         issues, Sun.
     VOA On Line                       3-6 minute video blog of U.S. and China news in
                                         Cantonese and Mandarin
     VOA Business On Line              (Under development) 2-3 minute video blog of
                                         ﬁnancial terms

     Radio:
     Window on the World               60-minute newscasts of international, regional, China
                                          and U.S. news, and audience call-in segments
     America Today                     60-minute newscast on the United States with English-
                                          language learning and Americana features
     Business Scene                    25-minute daily business and ﬁnancial news
     Music World                       20-minute daily shows introducing the Top 10, jazz,
                                         country and other genres of American music
     Legal Issues                      20-minute stories explaining Supreme Court cases.
                                         (Transcripts published in books in China and
                                         Taiwan.)
     Uncut News                        Five-minute comparison of how news events were
                                         reported in Chinese and American/international
                                         media




OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010      47 .


                           SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




       Mailbox                           Five-minute summaries of audience comments from
                                           callers, emails and letters
       Language Learning:
       Tuning in the USA                  Improve your English skills using scripts from
                                           Volume 2 of the textbook, Tune in VOA
       Dynamic English                    20-minute structured language learning for advanced
                                            students
       Words and Idioms                   Five-minute weekly program introduces in-vogue
                                            idioms and customary language currently used in
                                            the United States, and explains their origins
       Popular American                   Three-minute weekly program uses a dialogue format
                                           to teach words and phrases used frequently by
                                           young Americans
       American Sports English            Three-minute weekly English language dialogue
                                           introduces American sports
       Learn A Word                       In just one minute, learn an English word, phrase or
                                            usage that is used in everyday news reports
       Business Etiquette                 Three-minute weekly program introducing appropri-
                                          ate behavior, customs and manners in business or any
                                            social occasions through learning English
       GoEnglish!                         Five-minute radio lessons based on VOA’s
                                             www.goEnglish.me interactive Web site




48 .                OIG Rpt. No. ISP-IB-10-53, Inspection of the Voice of America’s Chinese Branch, July 2010


                     SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
